NRC: OIG/98A-06 - Follow up Review of NRC's Process for Issuing and Tracking Notices of Enforcement Discretion (NOED)
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1998
> OIG/98A-06
OIG/98A-06 - Follow up Review of NRC's Process for Issuing and Tracking Notices of Enforcement Discretion (NOED)
July 30, 1998
MEMORANDUM TO:
L. Joseph Callan
Executive Director for Operations
FROM:
Thomas J. Barchi
Assistant Inspector General for Audits
SUBJECT:
FOLLOW UP REVIEW OF NRC'S PROCESS FOR ISSUING AND TRACKING NOTICES OF
ENFORCEMENT DISCRETION (NOED)
Attached is the Office of the Inspector General's (OIG) report entitled, "Follow
Up Review of NRC's Process for Issuing and Tracking Notices of Enforcement Discretion
(NOED)." This report reflects the results of a follow up review to our October
1994 audit report entitled, "Review of NRC's Compliance with Notice of Enforcement
Discretion Policy and Procedures."
Although we had findings from this review, OIG apprised NRC senior management
of these findings during our review, and as a result they took corrective actions.
On June 9, 1998, OIG held an exit conference and briefed agency managers on
our findings and discussed these corrective actions. Since this report contains
no recommendations, we did not provide a draft for agency comment.
Attachment: As stated
Contents:
Report Synopsis
Introduction
Background
Findings
NRR Needs to Update And Improve Its NOED Tracking Mechanism
NRR Should Improve its Process for Documentation/Authorization
NRR Needs to Ensure Scrutiny in Documenting the Manual
Requirements
NRC's Letter to the Licensee
Conclusion
Appendices
I. Objectives, Scope, and Methodology
II. Major Contributors to This Report
III. Glossary: Office of The Inspector General Products
Investigative
Audit
Regulatory
Report Synopsis
The Office of the Inspector General has conducted a follow up review of the
U.S. Nuclear Regulatory Commission's (NRC) policy and procedures for issuing
Notices of Enforcement Discretion (NOED). Our objective was to evaluate whether
the agency had implemented recommendations from our previous audit of 1994 in
this same area, and if the agency continues to comply with its NOED procedural
requirements.
The NRC Inspection Manual, Part 9900: Technical Guidance, provides the NRC
procedures for implementing the exercise of discretion with regard to limiting
conditions for operation in power reactor Technical Specifications or other
license conditions for an operating facility. This enforcement discretion, an
NOED, may only be exercised if the NRC staff is clearly satisfied that the action
is consistent with protecting the public health and safety. The action requested
by the licensee must be temporary, nonrecurring, and involve minimal or no safety
impact. In addition, NRC is expected to take enforcement action for any root
cause violation that led to the request for the NOED.
The number of NOEDS issued by the agency has decreased significantly since
our last review in 1994. The number of NOEDs issued for the years 1991 through
1994 ranged between 64 and 73 per year. The number of NOEDs issued for the period
covering this review, which included 1995 through 1998, ranged from 5 to 39
per year.
Our review, based on a sample of 59 of the 87 NOEDs from NRR and Region II
files, found that NRC remains in general compliance with its procedures for
granting NOEDs. However, we found some shortcomings in NRC's administration
of the NOED program. First, NRC did not complete its commitment to our 1994
recommendation to improve its tracking mechanism. Second, documentation of oral
conversations and the participants involved in granting NOEDs is not maintained.
Third, NRC needs to ensure that proper tracking and follow up inspection occurs
between the Regions and NRR. Finally, we believe that NRC needs to ensure that
the requirements stated in the Manual are properly documented. NRC has corrective
actions underway to address these shortcomings. Therefore, we made no recommendations.
Introduction
The Office of the Inspector General (OIG) has completed a follow up review
of the U.S. Nuclear Regulatory Commission's (NRC) policy and procedures for
issuing Notices of Enforcement Discretion (NOEDs). We performed an initial review
in 1994(1) and found that NRC was in general
compliance with its procedures for granting NOEDs. However, we also identified
some shortcomings in NRC's administration of the NOED program and made four
recommendations to address those shortcomings.
Our overall objective for this follow up review was to evaluate whether the
agency continued to comply with its NOED procedural requirements and had implemented
our 1994 recommendations. Appendix I contains a more detailed description of
our objectives, scope, and methodology.
Background
The Office of Enforcement (OE) exercises oversight of and carries out the NRC
enforcement program. Subject to OE's oversight and direction and, if necessary,
with the approval of the appropriate Deputy Executive Director for Operations
(DEDO), regional offices normally issue Notices of Violation and proposed civil
penalties to licensees, vendors, contractors, and their employees. Similarly,
the Office of Nuclear Reactor Regulation (NRR) issues Notices of Violation and
proposed civil penalties for certain activities. In March 1993, NRC revised
the Code of Federal Regulations that contained the "General Statement of Policy
and Procedures for NRC Enforcement Actions" by adding a new subsection entitled
"Exercise of Discretion for an Operating Facility." That new subsection stated:
On occasion, circumstances may arise where a licensee's compliance with a Technical
Specification (TS) Limiting Condition for Operation or with other license conditions
would involve an unnecessary plant transient or performance of testing, inspection,
or system realignment that is inappropriate with the specific plant conditions,
or unnecessary delays in plant startup without a corresponding health and safety
benefit. In these circumstances, the NRC staff may choose not to enforce the
applicable TS or other license condition. This enforcement discretion will only
be exercised if the NRC staff is clearly satisfied that the action is consistent
with protecting the public health and safety.
NRC Inspection Manual, Part 9900: Technical Guidance (the Manual), provided
NRC's procedures for implementing this policy revision. Subsequently, the NRC
removed its Enforcement Policy from the Code in July 1995 and issued NUREG-1600(2),
containing the same general statement of policy and procedures.
The Manual continues to provide the NRC procedures for implementing the exercise
of discretion for an operating facility. The Manual states that NRC may exercise
enforcement discretion only when the requested action is temporary, nonrecurring,
and when the course of action is consistent with protecting public health and
safety. However, "the decision to exercise enforcement discretion by issuing
an NOED does not change the fact that a violation will occur, nor does it imply
that enforcement discretion is being exercised for any violation that may have
led to the violation at issue." Therefore, "in each case where the NRC staff
has chosen to exercise enforcement discretion, enforcement action will normally
be taken for any violations that were part of the root causes leading to the
noncompliance."
NRC intends that enforcement action emphasize that licensees should not rely
on NRC's authority to exercise enforcement discretion. Enforcement discretion
should not be viewed as a routine substitute for compliance, or for requesting
a license amendment.
Guidance in the Manual authorizes NRC Regions to issue NOEDs if licensees do
not need amendments to license conditions or plant technical specifications.
However, the duration for exercising this discretion should not exceed 14 days
(except in unusual circumstances). NRR has the responsibility for issuing NOEDs
that will result in an amendment to a license condition or plant technical specification.
At the time of our initial review, a public interest group and Senator Joseph
Lieberman had raised concerns about the agency's NOED policy. Shortly after
we had initiated our first review, NRC established a task force to review the
implementation of the NOED policy, as well as the NOED policy itself. The task
force's charter went beyond examining procedural compliance to include an examination
of the technical decisions made in granting NOEDs and the consideration of subsequent
root cause enforcement actions. Technical determinations related to an analysis
of operational and shutdown risk, as well as the likelihood of a plant transient.
In our opinion, these technical determinations are critical when deciding to
grant an NOED.
In contrast, our initial review focused on nontechnical compliance issues.
We found that NRC was in general compliance with its procedure for granting
NOEDs and revealed that licensee requests for NOEDs generally contained the
required information. However, we also found that (1) the agency's NOED procedures
did not stipulate time frames for NOEDs involving license amendments, (2) licensee
requests and NRC approvals for NOEDs did not address conditions for allowing
plant startup, (3) NRC did not perform root cause follow-up or follow-up was
inconsistent, and (4) NRR could improve its NOED tracking and information process.
As a result, we made four recommendations for improving the NOED program.
The DEDO agreed with our findings and recommendations. His response to our
draft report stated that our audit recommendations would be implemented in conjunction
with recommendations made by the NRC task force.
The number of NOEDs issued by the agency has significantly decreased since
our last review. The number of NOEDs issued during our last review consisted
of 70, 73, 64, and 67 for the years 1991, 1992, 1993, and 1994, respectively.
For the period covering this review, the number of NOEDs issued was 39 for 1995,
7 for 1996, and 20 for 1997. There were 5 NOEDs for 1998 for the months of January
and February.
Findings
Similar to what we reported in 1994, we found that NRC remains in general compliance
with its procedures for granting NOEDs. With a few exceptions, NRC provides
the licensee with all required information for the basis of its NOED decisions.
However, we found that NRC needs to improve its implementation of the NOED
process in three areas. Most significantly, we determined that NRC needs to
update and improve its mechanism for tracking NOEDs. NRC did not complete the
action plan to resolve our 1994 recommendation in this area. Secondly, we believe
that NRC needs to improve its process for documentation and authorization. Finally,
we found that NRC needs to clarify some procedural aspects of the Manual.
NRR Needs to Update And Improve Its NOED Tracking Mechanism
In conducting our review, we found that most information regarding the NOED
tracking was not contained in NRR's NOED tracking system. The information in
the database had been lost due to a computer system failure, and had not been
restored completely. We believe this lack of an updated tracking system impedes
the ability to ensure that appropriate follow up, and any related enforcement
action, is taken. The lack of an updated tracking system also decreases the
ability to ensure that NOEDs are closed out in a timely manner.
In 1994, we reported that NRC did not have an adequate mechanism in place for
tracking NOEDs. Accordingly, NRC revised the Manual to require that NRR and
the Regions track their NOEDs in a LAN-based system. Additionally, the revised
Manual identified information to be tracked, including the assignment of tracking
numbers for all NOEDs granted. Although the agency committed to the development
of the LAN-based tracking system(3), we found
that they did not follow through on their commitment. Instead, NRR maintained
the agency's NOED database in a personal computer residing in NRR. The agency
designed the database, partly in response to our 1994 finding and recommendation
in this area, to track relevant data pertaining to the NOED process, including
follow up and closeout information. We found that all information in the database
was lost due to a computer system failure that occurred toward the end of Fiscal
Year 1996. At that time, the backup file resided on the same computer, which
resulted in the loss of all backup information. NRR reprogrammed the system
and began to restore information by scanning reports distributed prior to the
system failure. Recovery included portions of information from 1993 through
1998. However, at the time of our review, most of the information still was
not restored in the database. Computer system problems again occurred during
our review in March 1998. This second system failure corrupted the macros and
queries that provided data entry screens and report generating capabilities.
However, the basic NOED data was not affected at this time.
Most significantly, for the NOEDs we sampled, we found that the NOED database
did not have information relating to follow up root cause analysis and related
enforcement action. Additionally, the database did not include license amendment
information. Therefore, we could not determine the timeliness of issuing amendments.
There was also no information in the database indicating actual closing dates
for NOEDs. Because of the system failure and incomplete database, we believe
the agency cannot follow the process from the granting of the NOED to its closeout
electronically. This impedes the ability to ensure (1) the timely closeout of
NOEDs and (2) that appropriate follow up action, and related enforcement action,
is taken.
NRR senior managers told us that NRR and the Information Resource Management
(IRM) office discussed the development of a LAN-based NOED tracking system.
However, they also said that, at that time, IRM did not have the resources to
support such a small program. A November 1995 memorandum from the Director,
NRR, to the Executive Director for Operations reported that the action plan
activities were complete. According to NRR senior managers, NRR erroneously
dropped the development of the LAN-based system with the closeout of the action
plan.
During our review, we found two cases in which Region II was unaware of tracking
numbers being assigned. According to NRR, tracking numbers were assigned for
all NOEDs granted, including these two cases. They further stated that it is
possible that an NOED letter could go out without a tracking number, but it
is rare. They added that it may be possible that Region II was sent a copy of
the NOED concurrence letter prepared and reviewed before the final NOED letter
was distributed. The final approval letter would contain the NOED number. Additionally,
we believe an overall understanding of the database fields is required to ensure
the accuracy of information, and to reinforce the timely closeout of NOEDs.
In discussions with NRR and Region II representatives, we identified that a
misunderstanding exists with definitions of database fields. As a result, the
ability to ensure the accuracy in NOED information reporting is questionable.
At the time we began our audit, the NOED tracking system maintained by NRR
had not been restored completely because it was not considered one of the high
priority activities by NRR senior management. This was due (in part) to the
decreased number of NOEDs being submitted since 1995. They also told us that
only one person was assigned to NOED tracking, and that person had ancillary
responsibilities, which prevented full attention to this matter. Additionally,
the time involved to research information necessary to restore the system's
information has delayed updating the system.
NRR Should Improve its Process for Documentation/Authorization
NRC often grants NOEDs during oral discussions that occur between the licensee,
the Region, and NRR. The Manual states that an NOED may be requested orally,
but must be followed by a written request that confirms the information relied
upon in arriving at the decision made. From the sample we reviewed, we found
that NRR often grants NOEDs orally before receiving the written request from
the licensee. However, we were unable to determine if sufficient information
transpired in the oral discussions to reach the same conclusions as stated in
the written submittal.
From our sample, we found that NRC granted 19 out of 43 NOEDs orally before
receiving the licensees' written requests. In talking with NRR senior managers,
we found that they developed an NOED Checklist, but it is not an official part
of the inspection manual or the NOED. The checklist provides a tool for NRC
Project Managers to reference when discussing and taking information relating
to oral requests. However, we found that the identification of participants
in the discussions, or the retention of documentation pertaining to the discussions
is not a requirement. The licensee's written request and the agency's concurrence
process are used to confirm that the information discussed in the oral conversation
corresponds with the written request. For the most part, NRC's letter to the
licensee references the oral conversation. However, we were unable to determine
or confirm if sufficient information transpired in the oral conversations to
reach the same conclusion as stated in the written submittal. Additionally,
we could not determine if the appropriate concurrences and approvals were obtained
before granting the NOED.
Manual requires that the NOED be based on a written request from the licensee.
Licensees can request an NOED orally; however, a written request must follow
it. Oral discussions occur between NRR, the Region, and the licensee in which
they can grant the NOED verbally. The Manual further requires that if the request
is made orally, NRC must have sufficient information to reach the same conclusions
as if it had received a written submittal. The follow up written request should
confirm the information the NRC staff relied upon in making its decision. The
Manual further directs that NRC staff obtains specific concurrences depending
on whether it is granted by the Region or by NRR. Any discrepancies between
the oral and written request are to be documented.
NRR senior managers told us they believe NRC's letter to the licensee serves
as the reference to verify all NOED information. Additionally, they said they
are administering the agency's efforts toward a paperless system by not requiring
the retention of notes or the checklist pertaining to the oral discussions.
Therefore, they choose to continue to document orally granted NOEDs through
the issuance of NRC's letter authorizing the NOED. In continuing with this documentation
process, the participants in the oral conversation cannot be identified. We
believe this lack of participant identification results in a lack of accountability
for those involved in the decision to grant the NOED. Additionally, there is
no official record of NRC participants involved with granting NOED requests
made orally.
NRR Needs to Ensure Scrutiny in Documenting the Manual Requirements
The Manual requires that NOEDs be closely coordinated between NRR and the Region
to ensure that they are given consideration for enforcement action for any root
cause violations that led to the NOED. We found that improvements need to be
made in providing adequate documentation through NRC's letter to the licensee
that the requirements as stated in the Manual are met.
NRC's Letter to the Licensee
During our review, we found that some requirements as stated in the Manual
are not being appropriately documented in NRC's letter to the licensee. Because
of this lack of documentation, we were unable to determine if certain criteria
as stated in the Manual are being met.
We found in several instances that NRC did not issue its NOED approval letter
within the required time after receipt of the licensee's written NOED request.
Additionally, in at least five cases involving requests for license amendments,
NRC's letters did not show the type of license amendment to be processed (emergency
or exigent). For 52 out of 59 NOED files sampled, we could not determine if
NRC verified they had reviewed the licensee's safety issues. Similarly, for
51 out of the 59 NOED approval letters, NRC did not clarify inclusion of marked-up
technical specification pages with the licensee's request, or if the licensees
stated that the NOED request is not based on a failure to adopt approved line-item
improvements. Licensees are to adopt the Improved Standard Technical Specifications
that focus on plant conditions important to safety issues and were developed
to reduce unnecessary technical specification requirements.
The Manual states that NRC should normally issue its NOED approval letter within
two working days of receipt of the licensee's written request. The Manual further
states that the NRC should verify that the Plant Onsite Review Committee, or
its equivalent for reviewing safety issues, approves the licensee's request.
The Manual provides direction to confirm that the licensee's request included
marked-up technical specification pages for a follow-up license amendment, and
that prior adoption of approved line-item improvements to the technical specification
would not have prevented the need for the request.
We believe this lack of NRC verification limits the ability to ensure the NOED
process is consistent with the policy and guidance. In our opinion, the line-item
improvement, if implemented, should reduce the need for an NOED. The marked-up
technical specification pages allow the agency to evaluate the safety impacts
when reviewing the NOED request.
Conclusion
By the time we had completed our audit field work, NRC had initiated corrective
actions. These actions were based on ongoing discussions we held with NRR senior
management related to our findings during the course of our review. As a result,
NRR senior management committed to update the database to include root cause
follow up and associated license amendment information by July 1, 1998. Based
on a preliminary review of the work done with respect to updating the database,
it appears that NRR has updated the system as discussed during our review. Beyond
updating the NOED information in the database, NRR senior managers approved
the installation of additional hardware to the personal computer containing
the NOED database as a method to ensure backups of the database system are maintained
separately. NRR senior management has also committed to having two additional
staff serve as backup personnel to the original NOED tracking coordinator.
Additionally, NRR senior management agreed to provide clarification on database
field definitions based on our observation of potential misunderstandings. We
found that the agency is reviewing the Manual to determine if any other areas
need additional clarification, and to ensure that the proper foundation for
documenting the basis of the decision for granting the NOED is provided. NRR
senior management also agreed to identify the participants involved in the oral
conversations when NOEDs are requested and granted orally to ensure accountability
for the decision made.
Based on the corrective actions underway by NRR, we are not making any recommendations
at this time. However, we plan to monitor the agency's implementation of these
corrective actions.
Appendices
I. Objectives, Scope, and Methodology
Our goal in performing this review was to determine whether the agency has
effectively continued to follow its Inspection Manual, Part 9900 (the Manual),
for implementing NRC's Notice of Enforcement Discretion (NOED) policy, and if
the agency effectively implemented our recommendations made in 1994. To accomplish
this goal we:
(1) Determined the extent of compliance with the Manual, and
(2) Determined whether the agency effectively implemented recommendations
made in 1994.
We conducted our review from early February to late April 1998. We interviewed
NRC headquarters staff in the Office of Nuclear Reactor Regulation (NRR) and
Office of Enforcement. We also interviewed personnel from regional offices who
are involved in the NOED process.
We reviewed NRC rules and guidance affecting the issuance of NOEDs. We also
reviewed a sample of NOEDs granted for the period January 1995 through February
1998. Our sample represented 43 of the 71 NOEDs maintained in NRR's files, and
16 of the 16 NOEDs from Region II files during that period. The sample included
NOEDs granted by both NRR and the Regions. We did not verify the completeness
of the sample provided. Because this review examined compliance with the Manual
only, we did not evaluate the internal controls related to the agency's overall
enforcement policy. We also did not evaluate the technical merits of the NOEDs
granted.
We conducted our review according to generally accepted Government auditing
standards.
II. Major Contributors to This Report
Anthony C. Lipuma
Team Leader
Russell Irish
Audit Manager
Gina I. Smith
Management Analyst
III. Glossary: Office of The Inspector General Products
Investigative
1. INVESTIGATIVE REPORT - WHITE COVER
An Investigative Report documents pertinent facts of a case and describes available
evidence relevant to allegations against individuals, including aspects of an
allegation not substantiated. Investigative reports do not recommend disciplinary
action against individual employees. Investigative reports are sensitive documents
and contain information subject to the Privacy Act restrictions. Reports are
given to officials and managers who have a need to know in order to properly
determine whether administrative action is warranted. The agency is expected
to advise the OIG within 90 days of receiving the investigative report as to
what disciplinary or other action has been taken in response to investigative
report findings.
2. EVENT INQUIRY - GREEN COVER
The Event Inquiry is an investigative product that documents the examination
of events or agency actions that do not focus specifically on individual misconduct.
These reports identify institutional weaknesses that led to or allowed a problem
to occur. The agency is requested to advise the OIG of managerial initiatives
taken in response to issues identified in these reports but tracking its recommendations
is not required.
3. MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate
correction of problems and to avoid similar issues in the future. Agency tracking
of recommendations is not required.
Audit
4. AUDIT REPORT - BLUE COVER
An Audit Report is the documentation of the review, recommendations, and findings
resulting from an objective assessment of a program, function, or activity.
Audits follow a defined procedure that allows for agency review and comment
on draft audit reports. The audit results are also reported in the OIG's "Semiannual
Report" to the Congress. Tracking of audit report recommendations and agency
response is required.
5. SPECIAL EVALUATION REPORT - BURGUNDY COVER
A Special Evaluation Report documents the results of short-term, limited assessments.
It provides an initial, quick response to a question or issue, and data to determine
whether an in-depth independent audit should be planned. Agency tracking of
recommendations is not required.
Regulatory
6. REGULATORY COMMENTARY - BROWN COVER
Regulatory Commentary is the review of existing and proposed legislation, regulations,
and policies so as to assist the agency in preventing and detecting fraud, waste,
and abuse in programs and operations. Commentaries cite the IG Act as authority
for the review, state the specific law, regulation or policy examined, pertinent
background information considered and identifies OIG concerns, observations,
and objections. Significant observations regarding action or inaction by the
agency are reported in the OIG Semiannual Report to Congress. Each report indicates
whether a response is required.
1. Review of NRC's Compliance With Notice of Enforcement
Discretion Policy and Procedures, OIG/94A-24, October 17, 1994.
2. NUREG-1600, Rev. 1 was published in May 1998 containing
the same general statement of policy and procedures as NUREG-1600.
3.  SECY-95-078, "Staff Actions to Address Recommendations
Resulting from Recent Evaluations of the Notice of Enforcement Discretion (NOED)
Policy and Process."
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees